                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

11   Case Number: A06060029
                                                                                   11          Page 1 of 1        11
                   An NSF employee1advised NSF OIG that an NSF grant proposal2 to the Biological
           Sciences Directorate was effectively, a duplicate of a pending NIH proposal3. Further
           investigation and the subject's response4 verified this allegation. The Biological Sciences
           Directorate has a long-standing policy against this practice which says in pertinent part:

                     Research proposals to the Biological Sciences Directorate (not proposals for
                     conferences or workshops) cannot be duplicates of proposals to any other Federal
                     agency for simultaneous c~nsideration.~

                   This A-file was opened to determine if this was an isolated incident or part of a pattern of
           misconduct. The subject's response explains his history of NSF submissions and the
           circumstances that led him to believe his actions were within the guidelines for federal funding of
           research.
                   The subject received one award6 from NSF in 1999. That application was for a
                                 and therefore,
                                                                                                       . The
           subject withdrew his NIH application upon receiving that NSF award. Within two months7 of
           submitting this NSF application, the subject proposed a substantially duplicative proposal to
           NIH. The subject failed to indicate a "submission planned in the near future" in the NSF
           proposal that generated this investigation.
                   It appears that the subject was ignorant of the pertinent MCB policy regarding duplicate
           proposals. He fully answered each question in our inquiry, citing personal errors and confusion
           over conflicting rules in NSF and HHS policies.

           Conclusion
                  The subject's response and past actions do not demonstrate a pattern of misbehavior. The
           subject admits that these proposals did not properly reflect the status of pending support. His
           response acknowledges his past inappropriate conduct and future responsibilities.

           Accordingly, this case is closed.




 NSF OIG Fonn 2 (1 1/02)
